Audit of USAID/Mozambique’s Performance
Monitoring of Road Repair and Reconstruction
Activities Funded by the Southern Africa Floods
Supplemental Appropriations
Audit Report No. 4-656-03-001-P
January 31, 2003




            PRETORIA, SOUTH AFRICA
January 31, 2003

MEMORANDUM
FOR:           USAID/Mozambique Mission Director, Jay Knott

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Mozambique’s Performance Monitoring of
               Road Repair and Reconstruction Activities funded by the
               Southern Africa Floods Supplemental Appropriations
               (Report No. 4-656-03-001-P)


This is our report on the subject audit. In finalizing this report, we considered
management comments on the draft report and have included those comments,
in their entirety, as Appendix II in this report.

This report contains two recommendations for your action. Management’s
comments on the draft report indicated acceptance of both recommendations
and stated that the Mission had already taken some action to address them.
Consequently, we consider both recommendations to have received a
management decision. Please provide M/MPI with evidence of final action in
order to close both recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                              2
Table of
Contents                                                         Page

           Summary of Results                                     3

           Background                                             4

           Audit Objective                                        6

           Audit Findings                                         6

                  USAID/Mozambique Needs to Develop a Plan
                  for Timely Completion of EN211 Road Segment     8

                  Evaluations of Contractors’ Performance
                  Need To Be Conducted and Documented            11

           Management Comments and Our Evaluation                12

           Appendix I - Scope and Methodology                    14

           Appendix II - Management Comments                     17

           Appendix III – Status of Road and Bridge Repair and
                          Reconstruction Projects                21




                                                                        3
Summary of   During the year 2000, southern Africa experienced the worst flooding in a
Results      century. Hardest hit was the country of Mozambique. To help alleviate
             problems caused by this flooding, the U.S. Congress passed emergency
             supplemental appropriations totaling $160 million. These supplemental
             appropriations were to provide immediate rescue, relief, resettlement and
             reconstruction activities in the affected countries. USAID/Mozambique
             programmed $35 million of the supplemental appropriations to repair and
             reconstruct four damaged road segments totaling 206 kilometers and one
             major bridge. (See pages 4-5.)

             The objective of this audit was to determine whether USAID/Mozambique
             implemented and monitored its road and bridge repair and reconstruction
             activities under the supplemental appropriations funding in accordance with
             USAID policies and procedures. (See page 6.)

             As a result of this audit, the Regional Inspector General/Pretoria determined
             that USAID/Mozambique generally implemented and monitored its road and
             bridge repair and reconstruction activities under the supplemental
             appropriations in accordance with USAID policies and procedures. For
             example, USAID/Mozambique:

                •   reviewed and approved deliverables;
                •   maintained a Cognizant Technical Officer’s workfile;
                •   reported variations, proposed substitutions, and problems;
                •   recommended modifications;
                •   analyzed financial reports; and
                •   approved interim payments.

             In addition, USAID/Mozambique conducted monthly site visits and
             participated in monthly meetings with contractor personnel to discuss the
             progress of activities. Consequently, the bridge and three of the four road
             segments planned for reconstruction were on target to be completed within
             established time and budget limitations. (See page 6.)

             In spite of USAID/Mozambique’s actions in response to problems identified
             with contractor performance on one road segment, reconstruction work on that
             segment continued to be substantially delayed, and the quality of work was
             substandard. As a result, although a temporary functional road had been
             restored for local residents affected by the floods, those residents will not
             benefit from a permanent road as soon as anticipated. (See pages 8-10.)

             USAID/Mozambique did not conduct required annual performance
             evaluations for two engineering consulting firms with which it had direct
             contracts. As a result, vital information on the contractors’ performance had
             not been officially documented. This could result in the future selection of
             contractors with poor past performance. (See page 11.)

                                                                                       4
Background   From February through May 2000, southern Africa experienced its worst
             flooding in a century. Hardest hit was Mozambique, one of the ten poorest
             countries in the world. In February 2000, Cyclone Eline struck the provinces
             of Sofala, Inhambane and Manica in Mozambique. The heavy rains caused
             three major rivers to reach their hundred-year flood levels, completely
             submerging the towns of Chokwe, Xai-Xai, Nova Mambone and Machanga.
             Cyclone Hudah then struck central Mozambique, further aggravating the
             situation. These floods and cyclones affected all or part of Maputo City and
             six provinces—Maputo, Gaza, Inhambane, Sofala, Manica, and Tete—which
             account for 48 percent of Mozambique’s population. It is estimated that two
             million residents of Mozambique were affected.

             As a result of the rainfall and flooding, much of the road network in southern
             and central Mozambique sustained severe damage, including the complete
             washout of road segments and bridge approaches, and blockage of drainage
             systems. In total, an estimated 1,500 kilometers of roads were damaged.

             To provide assistance for southern African countries affected by this flooding,
             the U.S. Congress appropriated $25 million in fiscal year 2000 for the
             Southern Africa Flood Reconstruction Program.1 The following year,
             Congress appropriated an additional $135 million for the same purpose.2 Of
             those amounts, USAID/Mozambique received $132 million, $35 million of
             which was allocated to rehabilitate and reconstruct roads damaged by the
             floods. The remaining $97 million was programmed for other emergency
             uses, such as railroad rehabilitation and agricultural programs.

             In a joint effort with the Government of Mozambique, USAID/Mozambique
             identified four key road segments and one major bridge to finance—in part—
             with supplemental appropriations funding. To implement these activities,
             USAID/Mozambique awarded direct contracts to two engineering consulting
             firms to design and supervise the reconstruction of the four road segments and
             the bridge. In addition, host-country contracts were awarded to three
             construction firms by the Government of Mozambique for the road and bridge
             repair and reconstruction. USAID/Mozambique was to provide 94 percent of
             the funding and indirectly monitor the construction contractors through the
             engineering consulting firms. To determine the Government of
             Mozambique’s capability to handle this arrangement, USAID/Mozambique
             conducted an assessment of the host country’s procurement system and
             certified its capability in accordance with USAID requirements.3

             1
               Public Law 106-246, dated July 13, 2000.
             2
               Public Law 106-429, dated November 6, 2000.
             3
               ADS 301.5.2 , Procurement System Assessment, states that when the Strategic Objective or
             Results Package Team is considering assigning a contract anticipated to exceed $250,000 to
             an agency of the host country, they must first establish a team to assess the agency's
             procurement system and then obtain the Mission Director's certification of its capability.


                                                                                                   5
The four road segments (totaling 206 kilometers) and bridge to be repaired
and reconstructed with supplemental appropriations funds included:


    •   EN208 from the town of Chibuto to Guija, (60 km);
    •   EN205 from the town of Chokwe to Macarretane, (25 km);
    •   EN1 from the town of Gorongosa to Inchope, (74 km);
    •   EN211 from the town of Nova Mambone to the EN1, (47 kms); and
    •   Save River Suspension Bridge




                                              EN1




                                                        EN211 and
                                                        Save Bridge




                                            EN205 and
                                            EN208




Map of Mozambique showing USAID road reconstruction activities funded from fiscal year
2000-2001 emergency supplemental appropriations for post-flood rehabilitation in southern
Africa (Map source: http://www.lib.utexas.edu/maps/africa/mozambique_pol95.jpg)




                                                                                     6
Audit Objective   This audit was designed by the Regional Inspector General/Pretoria as part of a
                  comprehensive plan to provide concurrent performance and financial audit
                  coverage over activities funded by the Southern Africa Floods Supplemental
                  Appropriations. The audit was performed to answer the following question:

                            Did USAID/Mozambique implement and monitor its road and bridge
                            repair and reconstruction activities under the Southern Africa Floods
                            Supplemental Appropriations funding in accordance with USAID
                            policies and procedures?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.




Audit Findings    Did USAID/Mozambique implement and monitor its road and bridge
                  repair and reconstruction activities under the Southern Africa Floods
                  Supplemental Appropriations funding in accordance with USAID policies
                  and procedures?

                  USAID/Mozambique generally implemented and monitored its road and bridge
                  repair and reconstruction activities in accordance with USAID policies and
                  procedures.

                  In accordance with the requirements of USAID’s Automated Directives System,4
                  USAID/Mozambique:

                        •   reviewed and approved deliverables;
                        •   maintained a Cognizant Technical Officer’s workfile;
                        •   reported variations, proposed substitutions and problems;
                        •   recommended modifications;
                        •   analyzed financial reports; and
                        •   approved interim payments.

                  In addition, USAID/Mozambique conducted monthly site visits to each of the
                  road segments to observe progress and participated in monthly meetings with
                  engineering consulting firms and construction contractors. With the assistance of
                  these implementing partners, USAID/Mozambique has made substantial progress
                  toward its goal of re-establishing access to and use of key rural, national, and
                  regional roads in flood-affected areas of the country. As a result of
                  USAID/Mozambique’s implementation and monitoring efforts, the bridge and
                  three of the four road segments planned for reconstruction were on target to be
                  completed within established time and budget limitations.
                  4
                      See ADS 202.

                                                                                              7
Photograph of a section of the EN205 road segment between the towns of Chokwe and
Macarretane in Mozambique that was damaged by the floods. This photograph was
taken before the reconstruction work began. (Photo by Mission Personnel, August
2001)




Photograph of completed section of the EN1 road segment between the towns of Gorongosa and
Inchope in Mozambique. (Photo by RIG/Pretoria, August 2002)




                                                                                     8
Overall, the road and bridge repair and reconstruction activities have taken longer
than originally planned. For example, the original planned completion date for all
road and bridge activities under the supplemental appropriations funding was
September 30, 2002. As of September 9, 2002, only 82.6 kilometers (40 percent)
of the 206 kilometers of roads planned to be rebuilt were complete up to the
surfacing. (See Appendix III for the status of each road segment.) The delays
were due primarily to (a) variation orders for additional work,5 and (b) poor
performance by the construction contractor and engineer consulting firm on one
of the road segments. Except for that one road segment (EN211), the other
activities were progressing well and were expected to be completed by their
respective revised completion dates.

With regard to road segment EN211, we believe that USAID/Mozambique needs
to develop a plan, including a definitive revised completion date, to complete that
road segment in a timely manner. We also believe that USAID/Mozambique
should conduct and document performance reviews of the two engineering
consulting firms contracted with supplemental appropriations funding. These
issues are discussed in greater detail below.


USAID/Mozambique Needs to Develop a Plan
for Timely Completion of EN211 Road Segment

The original planned completion date for the EN211 road segment was
August 19, 2002. As of September 9, 2002, none of the 47 kilometers of road
had been completed, and much of the base work was of poor quality. This
was due, among other reasons, to slow mobilization by the construction
contractor and poor performance by the construction contractor and the
engineering consulting firm. USAID/Mozambique took actions to mitigate
these problems, but those actions were not sufficient to avoid the resultant
delays. As a result, although a functional temporary road had been restored
for local residents affected by the floods, those residents may not benefit from
a permanent road until March or April 2003. At the time of the audit,
USAID/Mozambique had not developed a plan of action to complete the
project in a timely manner.

One of the activities to be financed, in part, by supplemental appropriations
for the southern Africa floods of 2000, was the repair and reconstruction of 47
kilometers of road along the EN211 roadway between the EN1 road segment
and the town of Nova Mambone on the eastern coast of Mozambique. To
accomplish this, USAID/Mozambique agreed to help finance a host-country
contract between the Mozambique’s Administacao Nacional das Estradas
(ANE) and a construction contractor. The contract was a fixed-price contract


5
 For example, two variation orders were submitted under the reconstruction contract for the
EN205 road segment which changed the pavement design life from 3 to 15 years and
extended the planned completion date by eight months.

                                                                                       9
that included the reconstruction of the EN211 road segment and the repair of
the Save River Bridge.

USAID/Mozambique agreed to provide 94 percent of the total construction
contract funding. Based on that percentage, USAID/Mozambique’s share of
the EN211 road segment amounted to $6.8 million. Construction
management services were to be provided by an engineering consulting firm
contracted directly by USAID/Mozambique to supervise the work of the
construction contractor. The reconstruction of the road segment was to begin
on June 26, 2001 and to be completed by August 19, 2002.

At the conclusion of audit fieldwork on September 9, 2002, the auditors found
that none of the 47 kilometers on the EN211 road segment had been
completed up to the surfacing. Although the construction contractor had
completed the base level for 13 of the 47 kilometers, the surfacing of the road
had not been started. Also, the quality of the base work was questionable and
most had been rejected by the engineering consulting firm’s resident engineer.

The reasons for the delays included additional work not included in the
original contract (such as additional roadbed preparation), slow mobilization
and poor performance by the construction contractor, and abnormal rainfall.
Another factor was poor performance on the part of the engineering
consulting firm’s resident engineer. Because of these delays, the construction
contractor submitted a revised work program in March 2002 that projected the
completion date of the EN211 road segment to October 15, 2002.
USAID/Mozambique later requested that the construction contractor complete
its work no later than December 31, 2002. However, USAID/Mozambique’s
Activity Manager for the EN211 project estimated that the reconstruction
work on this road segment might not actually be finished until March or April
2003. At the time of the audit, USAID/Mozambique had not formalized a
definitive plan or timeframe for completing the road segment, even though the
completion date under the host-country construction contract had expired.

USAID/Mozambique was aware of construction delays on EN211 as early as
September 2001. In a trip report for that month, the CTO indicated that
contractor mobilization was slow and could delay the completion date.
Following are some of the actions USAID/Mozambique reported taking in
response to the construction delays on the EN211 road segment.

   •   In November 2001, USAID/Mozambique reported meeting with
       officials from ANE and the engineering consulting firm to discuss
       terminating the construction contract due to slow construction
       contractor mobilization. According to USAID/Mozambique, those
       present decided not to terminate the contract because of contractor
       assurance of imminent mobilization, the fact that there was still ample
       time to complete the work, and expected additional delays of
       launching another procurement action.


                                                                          10
   •   Also in November 2001, USAID/Mozambique reported meeting with
       the engineering consulting firm and construction contractor to impress
       upon them the emergency nature of the project and to stress that poor
       procurement planning by the construction contractor was not an
       acceptable reason for delays in the arrival of construction materials.

   •   In February 2002, USAID/Mozambique personnel met with officials
       from the engineering consulting firm to arrange for the replacement of
       its resident engineer. This replacement, which took effect in April
       2002, was deemed necessary due to the resident engineer’s weak
       performance with respect to reporting and overall technical
       supervision.

   •   In March 2002, USAID/Mozambique reported meeting with ANE’s
       Chairman to address concerns under the host-country contract.
       According to USAID/Mozambique, both parties agreed to put pressure
       on the construction contractor and engineering consulting firm by
       stressing the need for compliance with work plans.

   •   In July 2002, USAID/Mozambique reported meeting with the directors
       of the engineering consulting firm. During the meeting, the Mission
       Director reiterated the need to complete construction of EN211 by
       December 31, 2002. According to USAID/Mozambique, assurances
       were received that this was still possible.

Despite USAID/Mozambique’s reported actions, construction problems on
this road segment persisted and resulted in substantial delays in the progress
of the work, as well as its substandard quality. Such delays meant that,
although a temporary functional road has been restored for local residents
affected by the floods, those residents may not benefit from a permanent road
until March or April 2003, more than six months later than originally planned.

At the conclusion of the audit, USAID/Mozambique had not formalized a
definitive plan or timeframe for completing the road segment, even though the
completion date under the host-country construction contract had expired.
Therefore, we are making the following recommendation.


       Recommendation No. 1: We recommend that
       USAID/Mozambique develop a plan of action to overcome
       known shortfalls in the reconstruction of the EN211 road
       segment and include in that plan a definitive timeframe for
       the timely completion of the road segment.




                                                                         11
Evaluations of Contractors’ Performance
Need to Be Conducted and Documented

USAID/Mozambique did not conduct an annual evaluation of the contractors’
performance, nor did it prepare annual contractor performance reports for the
direct contracts awarded to two engineering consulting firms in accordance
with USAID policy.6 This requirement, to evaluate and document the
performance of the two firms, was overlooked by USAID/Mozambique
officials. As a result, vital information on the contractors’ performance had
not been officially documented. This could result in the future selection of
contractors with poor past performance.

According to ADS 202.3.4.1, Assessing Performance of Contractors and
Recipients, preparing an annual Contractor Performance Report for contracts
that have a value of more than $100,000 and submitting them to the
contracting officer is one of the Cognizant Technical Officer’s responsibilities
for monitoring contractor performance.

USAID/Mozambique awarded direct contracts to two engineering consulting
firms to provide design and supervision services for the reconstruction of the
road segments financed under the supplemental appropriations funding. The
contracts were awarded in October 2000. Both contracts exceeded $100,000.
Based on USAID policy, annual performance evaluations for both firms were
due in October 2001. As of September 2002, USAID/Mozambique had not
conducted or documented performance evaluations for either of the two firms.
USAID/Mozambique officials attributed this omission to the fact that the
requirement to evaluate and document the performance of the two firms was
overlooked.

Performance evaluation is an important management tool. It documents
contractor performance in areas such as quality, cost control, timeliness and
customer satisfaction. USAID should use these evaluations to support future
award decisions. In the case of the activities audited, such documentation was
of particular importance─given USAID/Mozambique’s reported
dissatisfaction with the performance of one of the two engineering consulting
firms. To ensure that the performance, whether good or bad, of these two
firms is documented in accordance with USAID policy, we are making the
following recommendation.

        Recommendation No. 2: We recommend that USAID/Mozambique
        conduct a current performance evaluation of the two engineering
        consulting firms contracted to provide design and supervision
        services for the repair and reconstruction of road segments and
        bridges funded under the Southern Africa Floods Supplemental
        Appropriations, and prepare a Contractor Performance Report
        documenting the results of the evaluations.

6
    ADS 202.3.4.1.

                                                                           12
                 In its comments to our draft report, USAID/Mozambique provided additional
Management
                 information with regard to a November 2002 request from the Government of
Comments and     Mozambique’s Administracao Nacional de Estradas (ANE) for an addendum
Our Evaluation   to the host-country contract under which work on the EN211 road segment
                 was being done. This addendum, which requested additional time and money,
                  was based on additional work under that contract. USAID/Mozambique
                  explained that this requested addendum was an indication that at least a
                  portion of the delays experienced under the host-country contract for
                  reconstruction of the EN211 road segment was due to additional work
                  considered to be legitimate by the ANE and the engineering consulting firm.

                 USAID/Mozambique also suggested some changes to the text supporting the
                 audit recommendations, but not to the actual recommendations. In fact,
                 USAID/Mozambique indicated that, prior to receiving the draft audit report,
                 the Mission had already taken definitive action to address both of the audit
                 recommendations based on guidance and advice from the audit team. We
                 consider this response to constitute acceptance of, and a management decision
                 for, both recommendations.

                 With regard to USAID/Mozambique’s suggested changes, we agreed with
                 most of them and have incorporated those that we agreed with into this final
                 report. Most of the suggested changes had to do with actions
                 USAID/Mozambique reported taking in response to problems identified
                 during the reconstruction of the EN211 road segment. We incorporated the
                 following elements into the final report.

                    •   Additional work, as evidenced by a variation order, was a contributing
                        factor to delays on the EN211 road segment, as well as on some of the
                        other reconstruction projects;

                    •   A temporary functional road had been restored which provided local
                        residents affected by the floods with access to transportation during the
                        reconstruction of the EN211 road segment;

                    •   USAID/Mozambique held a series of meetings, between November
                        2001 and July 2002, with officials from ANE, the engineering
                        consulting firm, and the construction contractor to discuss ways of
                        resolving construction problems and delays on the EN211 road
                        segment. In those meetings, USAID/Mozambique reported:

                               discussing the possible termination of the construction
                                contract;
                               impressing upon the engineering consulting firm and the
                                construction contractor the emergency nature of the project and
                                the need for successful completion;

                                                                                            13
              arranging for the replacement of the resident engineer due to
               poor performance; and
              putting pressure on the construction contractor and supervisory
               engineer by stressing the need for compliance with the work
               plans.

We did not incorporate certain of USAID/Mozambique’s comments into our
report that we felt were subjective in nature or unverified by our audit work.
Such comments included:

   •   The actions taken by USAID/Mozambique in response to problems
       regarding the performance of the engineering consulting firm
       responsible for supervising the reconstruction of the EN211 segment
       were appropriate;

   •   In spite of the actions taken it was not possible to avoid the delay; and

   •   The actions taken by the Mission prevented further delays.

Nevertheless, we considered USAID/Mozambique’s comments to be
generally responsive to the concerns raised in the draft report and instrumental
in developing a fair and accurate audit presentation.

USAID/Mozambique’s comments are included verbatim as Appendix II.
Attached to those comments was a large quantity of supporting
documentation. While we reviewed the attached documents to verify that they
provided reasonable support for USAID/Mozambique’s comments, we did not
consider them to be essential for gaining an understanding of those comments.
Therefore, we did not include them in this report.




                                                                            14
                                                                                 Appendix I


Scope and     Scope
Methodology
              We conducted a concurrent performance audit of USAID/Mozambique’s
              monitoring of its road repair and reconstruction activities funded under the
              Southern Africa Floods Supplemental Appropriations. This audit was conducted
              in accordance with generally accepted government auditing standards. Audit
              fieldwork was conducted at USAID/Mozambique in Maputo from August 19
              through September 9, 2002. In addition, we conducted site visits to the four
              road segments to observe progress and attended two regularly scheduled
              meetings with contractors.

              We conducted the audit to determine (1) whether USAID/Mozambique had
              established plans and milestones to implement and monitor road construction
              activities financed under the supplemental appropriations, (2) which activities
              had begun, and (3) whether planned milestones had been achieved. In
              addition, the audit was conducted to determine whether USAID/Mozambique
              had established a monitoring system in compliance with ADS 202 and had
              effectively implemented the system.

              The scope of our audit included $35 million of supplemental appropriation
              funds that USAID/Mozambique had programmed to rehabilitate and
              reconstruct roads and bridges damaged by the floods. The $35 million were
              divided into three principal budget categories:

                                                                           US $(millions)
              Design and Construction Management Services                       3.6
              Repair and Construction Costs                                   30.9
              Project Management Services                                        .5
              Total                                                           35.0

              While our audit focused specifically on the repair and reconstruction services,
              we reviewed data for the other two categories as well. The audit covered the
              period of August 2000 to the end of our fieldwork on September 9, 2002.

              Although we did not set a materiality threshold for this audit objective, we
              designed our audit to address concerns such as:

                     inadequate oversight over reconstruction activities that increase the
                      likelihood of contracting irregularities occurring;
                     inaccurate reporting on the status of contract activities;
                     lack of awareness of existing problems at the construction site; and
                     payments made for services not rendered.




                                                                                          15
Methodology

In order to accomplish the audit objective, we evaluated management controls
and documentation relating to USAID/Mozambique’s monitoring of the road
repair and reconstruction activities. In order to gain an understanding of the
monitoring process, we held discussions with officials from the Mission, the
Government of Mozambique, the engineering consulting firms, and the
construction contractors.

To accomplish the audit objective, we developed an audit program and
performed the following tasks:

•   Assessed the risk of USAID/Mozambique’s system for monitoring the road
    repair and reconstruction to determine the likelihood of significant misuse of
    resources, failure to achieve program objectives, and non-compliance with
    laws and regulations, as well as management policies.

•   Assessed the effectiveness of USAID/Mozambique’s management controls
    to determine whether the controls were logical, reasonably complete, and
    likely to deter or detect possible misuse, failure, or errors. For example, we
    assessed the adequacy of USAID/Mozambique’s controls to determine
    whether the Mission had (1) developed a monitoring plan for tracking inputs
    and outputs; (2) established and maintained a separate workfile for
    documents and correspondence related to the contracts; (3) conducted site
    visits to evaluate progress; (4) documented significant actions, meetings, or
    conversations with the contractors; (5) monitored funds closely and on a
    regular basis; and (6) ensured the accuracy of the reports submitted by the
    contractors.

•   Reviewed the financial data, specifically, vouchers submitted by the
    construction contractors, to determine whether the USAID/Mozambique
    had reviewed them for accuracy and timely payment.

•   Conducted site visits to the four road segments and the bridge to observe
    progress and interview engineering consulting firms and construction
    contractors.

•   Gained an understanding of USAID/Mozambique’s performance
    monitoring of road repair and reconstruction by reviewing and analyzing
    applicable documentation such as, but not limited to, direct contracts, host
    country contracts, workplans, trip reports, monthly progress reports, minutes
    of meetings, and financial reports.

•   Reviewed financial audit reports of the engineering consulting firms and
    construction contractors that provided services for the road repair and
    reconstruction activities.

                                                                             16
[This page intentionally left blank]




                                       17
                                                                                                     Appendix II


Management
Comments


                              UNITED STATES
                    AGENCY FOR INTERNATIONAL DEVELOPMENT
                                   USAID MISSION TO MOZAMBIQUE


                                         MEMORANDUM

             To              :   Jay Rollins
                                 Regional Inspector General for Audit, USAID/Pretoria

             From            :   David Hess /s/
                                 Acting Mission Director, USAID/Mozambique

             Date            :   December 18, 2002

             Reference       :   USAID/600/02/em

             Subject        :    Audit of USAID/Mozambique's Performance Monitoring of Road
                                 Repair and Reconstruction funded by the Southern Africa Floods
                                 Supplemental Appropriations.


             Thank you for your memorandum of October 31, 2002 and for forwarding the subject
             draft audit report. The report highlights instances of inaction on one of the road segments
             by the Mission and makes two recommendations to USAID/ Mozambique.

             We attach, for your perusal, information and inclusion in the final audit report, the
             Mission’s Management Comments on the above draft audit report. Our suggested
             changes concern the text supporting the recommendations, and not the actual
             recommendations. In fact, prior to receipt of the draft report the Mission had taken
             definitive action to address both of the recommendations based on the guidance and
             advice of the audit team.

             The Mission would also like to clarify that it shared with the auditors all relevant
             information, including verbal reports on meetings that took place for which no minutes
             were prepared. Finally, the Mission wishes to report that on November 27, it received a
             letter from the road authority, ANE, requesting Addendum No. 1 to the Save contract
             based on approval additional work under that contract. This means that at least a portion




                                                                                                           18
of the delays experienced under this contract are due to additional works considered to be
legitimate by ANE and the engineer (see attachment A).

In this regard, the following edits are intended to clarify some of the points made in the draft report
and offer what we consider to be language that better characterizes the Mission’s efforts to actively
monitor the project.

1.   Page 3, Summary of Results, para 4 would be replaced with: “The Save Bridge and three of
     the four road segments will be completed within the established time and budget limitations,
     and at the required quality standards. In spite of the Mission’s action in response to problems
     identified with contractor performance on one road segment, however, reconstruction work on
     that segment was substantially delayed and the quality of the work performed was
     substandard. Consequently, although a functional road (see attachment B) has been restored
     for local residents affected by the floods, residents will not benefit from a fully paved road
     segment as soon as anticipated (see pages 8 and 9). The Mission is ensuring, however, that
     the final product for EN211 will meet the contract specifications.”

2.   Page 6, para 3 would be replaced with: “Overall, the activities have taken longer than
     originally planned. For example, the planned completion date of all road and bridge activities
     under the Supplemental Appropriations funding was September 30, 2002. As of September 9,
     2002, 82.6 kilometers (40 percent) of the 206 kilometers of roads planned to be rebuilt were
     complete up to the surfacing (see Appendix III for the status of each road segment). The
     delays are due to (a) additional work on one of the road segments (see attachment C - variation
     order 1 and 2 for Limpopo Contract) that resulted in a road that is built to a standard that
     extends the design life of the road from three to fifteen years, and (b) additional work and poor
     construction contractor performance on the EN 211 road segment (see attachment A - Draft
     Addendum No.1 to the Save contract and attachment D - minutes of progress meetings No.1 to
     13). The Mission did not conduct annual performance reviews, as required by USAID, of the
     two engineering consultant firms contracted with Supplemental Appropriations funding.
     These issues are fully discussed below.”

3.   Page 8, para 1 would be replaced with the following: “USAID’s policy encourages early action
     in response to problems identified through program monitoring. The actions taken by
     USAID/Mozambique in response to problems regarding the performance of the engineering
     consultant responsible for supervising the reconstruction of the EN211 segment were
     appropriate. In spite of the actions taken it was not possible to avoid the delay. Indeed, the
     actions taken by the Mission prevented further delays. The additional work (see attachment A)
     and the systematic failure by the construction contractor in complying with the work program
     is responsible for multiple delays in the rehabilitation of 47 kilometers of the damaged road
     segment as well as substandard quality of work.” (see attachment D - minutes of progress
     meeting No.1 to 13)




                                                                                                    19
4. Page 8, paras 3-4 would be replaced in their entirety and read as follows: “The
   following points serve to illustrate the Mission’s efforts to address problems
   identified with contractor performance on the EN211:

  --From June 2001 (date of Contract signature) to March 2002 it was expected that
  contractor mobilization would follow shortly after contract signature. By November
  the contractor had not mobilized for the EN211 segment. In November 2001, the
  CTO met with the Activity Manager, the Engineer Black and Veatch and the ANE
  representative to discuss the option of terminating the contract with the construction
  company. After a long discussion it was decided by those present at the meeting that
  it would not be productive to terminate the contract. The option of contract
  termination was not pursued because of contractor assurance of imminent
  mobilization, the fact that there was still ample time to complete the work, and
  expected additional delays of launching another procurement action.

  --- On November 7, 2001, the Deputy Mission Director and the Contracting Officer
  visited the site and attended progress meeting No.4 following the Activity Manager
  trip report made in October 2001 indicating that the work on the EN211 road was
  progressing slower than planned and could impact the completion date. The Deputy
  Mission Director and Contracting Officer impressed upon the engineering consultant
  and the construction contractor the emergency nature of the project and the need for
  successful completion by December 31, 2002. The Contracting Officer also stressed
  that poor procurement planning by the construction contractor would not be an
  acceptable excuse for delays in the arrival of construction materials at the site (see
  attachment E - Trip report dated November 9, 2001).

  --- On February 20, 2002, the CTO and the activity manager met the Black & Veatch
  project manager and project director at USAID’s office and decided that the resident
  engineer did not possess the required attributes for the task. The slow progress of the
  construction contractor on EN211 road from November 2001 to February 2002 was
  due to the rainy season and late mobilization (lack of equipment on site).
  Consequently, the activities of the supervision team during this period of time were
  very limited. Even in a reduced activity environment, the performance of the
  resident engineer was considered weak, with respect to the preparation of interim
  payment certificates and overall technical supervision. Given the acceleration of
  construction activity expected with the beginning of the dry season, it was considered
  appropriate to replace the resident engineer with a stronger candidate (see attachment
  F - Resident Engineer replacement). The effective date for this transition was
  established as April 1, 2002.

  --- On March 26, 2002, a meeting was held between the CTO, the activity manager
  and the ANE’s Chairman of the Board of Directors to address the concerns under the
  ER: BASE program, specifically, the Save host country contract. ANE and USAID
  agreed that the delay on EN211 was due to weak performance by the construction
  contractor. The ANE Chairman and USAID agreed to put pressure on the
  construction contractor and the supervisory engineer by stressing the need for




                                                                                            20
     compliance with the work plans.

     --- On April 1, 2002, the new resident engineer for EN211 arrived on site. By
     April 2002, timely completion of the work was still expected by all parties
     involved (see attachment F - Resident engineer replacement).

     --- On April 2, 2002, the CTO's memorandum to the Contracting Officer addresses
     the B&V performance under ER: BASE in general. In the draft audit report this
     memorandum is incorrectly dated as June 2002 and it seems to be grounds for
     recommendation No.1. However, the technical issues raised in the memorandum
     concerned the Limpopo work only. The only mention of the Save contract related
     to informing the Contracting Officer of the fact that the resident engineer had been
     replaced on April 1, 2002 (see attachment G - Memorandum dated April 2, 2002).

     --- On July 31, 2002, the Mission Director, the Contracting Officer, and the
     Activity Manager met with the B&V Directors and addressed the problems of the
     Save host country contract. The Mission Director reiterated the need to complete
     construction of EN211 by December 31, 2002, and received assurances that this
     was still possible.”

  5. Page 9, paras 1-2 would be replaced by the following: “In spite of the Mission's
     actions as detailed above, construction problems on this road segment persisted
     and resulted in substantial delays in the progress of the work, as well as its
     substandard quality. For example, the original completion date for the road
     segment was August 19, 2002. As of September 9, 2002, none of the 47
     kilometers of road had been completed. Although the construction contractor had
     completed the base level of 13 of the 47 kilometers, the surfacing of the road had
     not been started. Also, the quality of the base work was questionable and had not
     been fully accepted by the engineering consultant. According to the CTO, the road
     reconstruction work on this road segment may not be finished until March or April
     2003. Such a delay will mean that although a functional road has been restored for
     local residents affected by the floods, residents will not benefit from a fully paved
     road segment as soon as anticipated. The Mission ensures however, that the final
     product for EN211 will meet the contract specifications. The Mission also ensures
     that every payment authorized under the Host Country Contract is only for work
     done as accepted by the engineering consultant.”

We would greatly appreciate your taking Mission Management’s Comments into
    consideration as you prepare the final report.




                                                                                             21
                                                                           Appendix III


    Status of Road and Bridge Repair and Reconstruction Projects

                                      Table I
                   Status of Completed Road Segments and Bridge
    Road         Kilometers Kilometers Original           Revised
    Segment/     to be         Completed Planned          Planned
    Project      Repaired      at Audit     Completion Completion
    EN205           25                6          February 2002     October 2002
    EN208            60              30          August 2002       December 2002
    EN1             74               46.6        October 2002      December 2002
    EN211           47                0          August 2002       March/April 2003
    Save River      N/A              N/A         June 2002         October 2002
    Bridge

EN205 Road Segment - At the time of our site visit, six of the 25 kilometers
being repaired and reconstructed were complete.7 The original planned
completion date for this road segment was February 20, 2002. Two variation
orders were submitted, which changed the pavement design life from 3 to 15
years and extended the planned completion date to October 21, 2002.
Progress on this road segment was going well, and completion was expected
by the revised completion date.

EN208 Road Segment - At the time of our site visit, 30 of the 60 kilometers
being repaired and reconstructed were complete. The original planned
completion date for this road segment was August 19, 2002. One variation
order was submitted, which changed the completion date to December 20,
2002. Progress on this road segment was going well, and completion was
expected by the revised completion date.

EN1 Road Segment - At the time of our site visit, 46.6 of the 74 kilometers
being repaired and reconstructed were complete. The original planned
completion date for this road segment was October 21, 2002. The revised
planned completion date was December 13, 2002. Progress on this road
segment was going well, and completion was expected by the revised
completion date.

EN211 Road Segment - At the time of our site visit, the original planned
completion date of August 19, 2002 had passed, and none of the 47 kilometers
of road to be repaired and reconstructed had been completed. Although the
construction contractor had completed the base level of 13 of the 47
kilometers, the surfacing of the road had not been started. Also, the quality of

7
 The low number of kilometers reconstructed on this road was due to the sequence chosen by
the contractor in which to construct the road.

                                                                                     22
the base work was questionable and most had been rejected by the engineering
consulting firm. According to the CTO, the road reconstruction work on this
road segment may not be finished until March or April 2003. Such a delay
will mean that local residents affected by the floods will not be able to access
the road as early as anticipated.

Save River Bridge - The original planned completion date was June 20,
2002. Despite earlier delays and slow progress, completion was expected by
the revised completion date of October 2002.


                                  Table II
 Financial Data for the Repair and Construction Costs as of August 31, 2002
 Road Segment/      Total Contract    USAID’s Portion Amount Expended
 Project               Amount             (94%)       by USAID
 EN205                      $5,632             $5,294             $2,817
 EN208                       6,592              6,197              3,540
 EN1                         8,671              8,151              3,401
 EN211                       7,295              6,858              2,382
 Save Bridge                 2,445              2,299                981
 Total                     $30,665            $28,799            $13,121




                                                                           23
